U.S. Department of                                              The Inspector General             Office of Inspector General
Transportation                                                                                    Washington, D.C. 20590
Office of the Secretary
of Transportation

May 15, 2012



The Honorable Frank R. Wolf
United States House of Representatives
Washington, DC 20515

The Honorable Tom Latham
United States House of Representatives
Washington, DC 20515

Dear Representatives Wolf and Latham:

Thank you for your letter of March 7, 2011, requesting that the U.S. Department of
Transportation (DOT) Office of Inspector General (OIG) review the management and
governance of the Metropolitan Washington Airports Authority (MWAA). MWAA,
which employs approximately 1,400 staff and is currently governed by a 13-member
Board of Directors, 1 is a public body with broad management authority over two major
federally owned airports in the Washington, DC, metropolitan region: Washington Dulles
International Airport and Ronald Reagan Washington National Airport. MWAA operates
these airports, their access highways, and other related facilities under the terms of a lease
agreement with DOT authorized by the Metropolitan Washington Airports Act of 1986 2
and an interstate compact between the Commonwealth of Virginia and the District of
Columbia. MWAA is also responsible for designing, constructing, and partially financing
the Dulles Corridor Metrorail Project—a two-phased, multibillion-dollar effort aimed at
connecting Northern Virginia regions and providing easier access to Dulles International
Airport. Consequently, MWAA’s decisions can have great influence over the
Washington, DC, area and its residents.




1
    Board members are appointed either by the President of the United States (three appointees), the Governors of Virginia (five
    appointees) and Maryland (two appointees), or the Mayor of Washington, DC (three appointees). They serve 6-year terms
    without compensation and establish MWAA policy.
2
    P.L. 99-591 (1986).
                                                                                                                         2

In your request, you stressed that the accountability and transparency of MWAA’s Board
of Directors are important to ensure the success of the Dulles Corridor Metrorail Project,
currently MWAA’s highest profile undertaking. In further communications with us, you
expressed concerns regarding multiple allegations of mismanagement and misconduct on
the part of MWAA. Although our audit, 3 which we initiated in June 2011, and
investigations into these allegations are ongoing, we are issuing this interim letter on our
observations to date, as we have identified areas of concern regarding accountability in
MWAA’s activities. This letter focuses on MWAA’s policies and processes for Board
travel, ethics, and transparency, as well as MWAA’s policies and processes for awarding
contracts. 4

Separately, you also requested that we review Phase 2 of the Dulles Corridor Metrorail
Project. In this request, you expressed concerns about project oversight and the
reasonableness of assumptions regarding Dulles Toll Road revenues, the major funding
source for this phase. We initiated this review on March 15, 2012, 5 and we are providing
preliminary details in this letter regarding whether MWAA’s project plans rely on
reasonable assumptions for toll road revenues.

SUMMARY OF OBSERVATIONS
Although the airports and projects it operates are federally owned or financed, MWAA is
independent of the Federal Government and not subject to Federal laws that govern
ethics, transparency, access to information, procurement, and other areas. As such,
MWAA’s governance depends on the strength of its internal codes, policies, and
processes, and its adherence to them. However, our work to date indicates that MWAA’s
accountability to Congress, stakeholders, and the public—as well as its compliance with
the Act—has been limited by weaknesses in its internal policies and oversight of these
policies. In particular, MWAA’s policies and procedures related to financial disclosures,
travel, and transparency are insufficient to ensure fiduciary and ethical responsibility in
the Board’s expenses and activities. MWAA’s contracting policies and practices are
similarly insufficient to ensure compliance with the Act’s provisions and its internal
procurement procedures, resulting in contracts that are not subject to full and open
competition and may not represent best value.

MWAA’s policies and practices are generally less rigorous than corresponding State and
Federal rules. Notably, MWAA’s government-appointed Board members are not bound
to the same State ethics and financial disclosure laws as the elected officials who
appointed them. This puts MWAA and its Board of Directors in a unique position
compared to other major transportation authorities that are State entities—and subject to

3
    OIG Audit Announcement No. 11A3013A000, “Audit Initiated of the Metropolitan Washington Airports Authority,” June 21,
    2011. OIG announcement letters and reports are available on our Web site at http://www.oig.dot.gov/.
4
    For a description of our scope and methodology, please see the enclosed Exhibit.
5
    OIG Audit Announcement No. 12M3001M00, “Audit Initiated of Phase 2 of the Dulles Corridor Metrorail Project,” March 15,
    2012.
                                                                                                                              3

State ethics, transparency, and procurement laws—or Federal entities subject to
corresponding Federal laws. Moreover, the policies lack procedural safeguards for
ensuring they are followed. There are limited avenues for judicial review, and few other
mechanisms (such as penalties for non-compliance) for addressing concerns regarding
MWAA’s ethics, transparency, contracting, and other practices. 6 In contrast, similar
entities, such as the Board of Directors of the Dallas-Fort Worth International Airport,
must follow Texas State law and guidelines related to ethics, transparency, and
procurement, and willful failure to comply can be punishable by imprisonment and fines.

Our ongoing review has revealed a culture that is largely unaccustomed to external audits
and inquiries by the accountability community. While MWAA has freely cooperated in
most areas of our review, Board and staff in some areas were reluctant to provide access
to key documents and grant us private interviews with Board members. MWAA’s
reluctance to providing us full transparency may be attributable to the fact that it has
experienced few independent audits since its creation 25 years ago. 7 However, increased
public and governmental scrutiny is likely for MWAA as it continues its progress on the
Dulles Corridor Metrorail Project and other high-profile endeavors. This will necessitate
a greater commitment to ensuring transparency to its stakeholders and the public to
promote and sustain confidence in the integrity of its actions and decisions.

Finally, based on our preliminary review, MWAA’s assumptions for Dulles Toll Road
revenue appear reasonable.

BOARD POLICIES AND LACK OF TRANSPARENCY LIMIT MWAA’S
ACCOUNTABILITY
MWAA’s policies and processes for ethical conduct and travel expenses do not ensure
accountability for the activities of its Board of Directors. Gaps in transparency have
further undermined MWAA’s accountability by obscuring key information from the
public. As a result, it is more difficult for the public to determine whether Board
decisions are reasonable, appropriate, and ethically sound.

Policies Are Not Sufficient To Promote Ethical Conduct or Prevent Potential
Conflicts of Interest
Although MWAA is not subject to Federal or State ethics guidelines and laws, MWAA
has a Code of Ethical Responsibilities aimed toward ensuring the integrity of decisions
made by its Board of Directors. 8 This includes obtaining financial disclosure information
6
    Another consequence is that there is less protection for employees who report fraud, waste, and abuse or who are asked to
    cooperate with investigations. Employees of most Federal entities are protected by Section 7c of the Inspector General Act,
    which prohibits reprisals for making complaints or disclosing information to an Inspector General. Most States have similar
    provisions for State employees. See, e.g., Virginia Code Ann. § 2.2-3009 et seq; MD Code, State Personnel and Pensions, § 5-
    305.
7
    The Government Accountability Office (GAO) has reviewed some aspects of MWAA’s contracting procedures, most recently
    in 2002, but has not conducted an audit of MWAA’s overall management policies and processes as we do in our current work.
8
    The Airports Act requires MWAA to establish this Code, but does not provide detailed requirements regarding its contents.
                                                                                                     4

from Board members to help prevent Board decisions from being compromised by
conflicts of interest. However, several weaknesses in MWAA’s policies and processes
limit their effectiveness in preventing violations of its codes as well as the appearance of
ethical issues or conflicts of interest:

• Oversight and training—MWAA does not provide the support and oversight needed
  to ensure Board members understand the importance of and comply with its ethical
  standards. While Board members are ultimately responsible for identifying and
  disclosing any potential conflicts of interest, they may not fully understand their
  responsibilities, increasing the risk of conflicts of interest. For example, MWAA’s
  policy states that Board members may not participate in any Board decision or
  Authority action when a conflict or the appearance of one arises. Yet, one Board
  member’s recommendation led MWAA to initiate a $100,000 contract with a law firm
  despite the fact that an immediate family member worked for the firm. While this
  family relationship had been previously disclosed, the Board member did not refrain
  from participating in matters related to the firm when the issue arose (per MWAA
  policy), and MWAA awarded the contract to the recommended firm. At a minimum,
  this created the appearance of a conflict of interest that may have been avoided had the
  Board member exercised better judgment and fully followed MWAA’s ethical
  procedures.

     Additional support and training are key to improving Board compliance with its ethical
     standards and preventing future conflicts. Currently, the Board Secretary and his staff
     are responsible for reviewing and compiling Board financial disclosure forms and
     consulting with Board members as needed. However, he does not document his
     review, regularly follow up with Board members regarding potential conflicts of
     interest, or document when ethics advice has been provided—practices recommended
     by the U.S. Office of Government Ethics. MWAA also does not provide ethics training
     to Board members or to those responsible for creating, updating, and reviewing
     financial disclosure forms, including the Board Secretary. Periodic ethics training can
     educate individuals regarding the requirements and standards to which they are held,
     and set a tone regarding the importance of ethical conduct in all official acts. While
     MWAA is not legally required to provide ethics training, such training is widely
     considered to be a critical component of any ethics program. 9

• Financial disclosure—MWAA’s financial disclosure process is insufficient for
  identifying and evaluating potential conflicts of interest. Because many Board
  members are established businessmen and professionals and active members of their
  communities, they may have many financial interests or relationships with multiple
  organizations that could represent potential conflicts of interest. Yet, MWAA’s
  financial disclosure form only requires Board members to list the employers of their
  immediate family members, and to disclose their financial interests in entities that are
9
    For example, the U.S. Office of Government Ethics recommends regular ethics training programs.
                                                                                                                                    5

      either currently involved with or seeking a contract with the Authority. MWAA
      provides Board members with a list of these entities, and Board members are required
      to report any interests they may have with the listed entities. As a result, MWAA’s
      process does not enable the identification of potential conflicts of interest, such as a
      Board member’s interest in a firm that has not worked with MWAA previously but
      may do so in the future.

      In contrast, Federal employees who are subject to disclosure requirements reveal all
      financial interests and other affiliations, with some exceptions, 10 as well as liabilities,
      gifts, arrangements and agreements for employment, outside positions, and travel
      reimbursements. Federal employees are also required to disclose all stock holdings
      above a low threshold. Federal ethics officials use the information employees disclose
      to identify potential conflicts and to advise the employee regarding the possibility of
      future conflicts, steps to take if there is a conflict, and how to appropriately recuse
      oneself or otherwise resolve the conflict of interest. MWAA’s financial disclosure
      system precludes such proactive steps.

• Differences between Board and employee policies—MWAA’s ethics policies do not
  emphasize ethical responsibilities and business integrity at MWAA’s uppermost level.
  While both Board members and MWAA staff are required to disclose “direct” and
  “indirect” financial interests in entities that do business with MWAA and to recuse
  themselves from participating on behalf of MWAA in transactions with those entities,
  MWAA’s policies for its Board are less rigorous than for employees. Under MWAA’s
  employee policy, staff must disclose any businesses from which they receive $2,500 in
  annual income in any form. They must also disclose any personal debt of at least $200
  from persons who do business or seek to do business with MWAA. In contrast, the
  Board policy sets the disclosure threshold for Board members at $5,000 11 and does not
  require members to disclose any personal debt. Moreover, the employee ethics policy
  explicitly includes all forms of income, including spousal income, when determining
  whether there is a conflict of interest. In contrast, the Board policy is not clear on
  whether there would be a conflict of interest with respect to all sources of income or
  only stock dividends or other unearned income. 12 Furthermore, the ethics code for
  employees contains a nepotism provision, 13 but the code for Board members does not.
  We have identified concerns related to nepotism at MWAA; our work is ongoing in
  this area. While the reasons for many of these differences in policies are unclear, they

10
     Exceptions include those interests that fall within well defined categories that have been found unlikely to create a conflict of
     interest (for example, ownership of a diversified mutual fund).
11
     Both policies include entities where the value of the employee’s or Board member’s holding exceeds $50,000 or 3 percent of
     the entities’ equity.
12
     Under the Board ethics policy, a “direct financial interest” is defined as an “enterprise that yields $5,000 or more in annual
     income to the Director or the Director’s Immediate Family” (emphasis added). The use of the term “yields” makes it unclear
     whether the Board policy applies to all income or only to stock dividends and other forms of unearned income (as opposed to
     income in any form).
13
     Under this provision, MWAA employees may not appoint, employ, promote, or advance within the Authority one of his or her
     relatives. They also may not exert control over employment status or business affairs of a relative working in the Authority.
                                                                                                                                6

      could create the impression that the Board holds itself to lower standards than MWAA
      employees.

• Recusal practices—MWAA’s ethics policies are vague regarding when and how
  Board members should recuse themselves when a conflict of interest arises. MWAA’s
  policy states that Board members may not participate in any respect related to an entity
  they have an interest in that is currently or seeking to do business with MWAA.
  However, the policy does not clarify how Board members should recuse themselves in
  these situations, raising concerns about the policy’s effectiveness. For example, one
  Board member left the meeting room for discussions related to a proposal for which he
  had disclosed a potential conflict. However, another Board member who recused
  himself in the same meeting remained in the room. While the Board member refrained
  from participating in the related discussion or voting on the matter, he had been
  instrumental in drafting the materials that were up for vote, and had a clear interest in
  the outcome of the vote because of his relationship with organizations that would
  potentially benefit from the proposal passing. These differing practices raise questions
  regarding how recusals should be conducted to most effectively prevent undue
  influence.

MWAA’s Policies and Oversight Do Not Ensure That Board Travel
Expenses Are Reasonable
Because MWAA is not subject to Federal or State guidance regarding travel
expenditures, MWAA’s travel policies are key for ensuring fiduciary responsibility in
Board expenses. MWAA has travel policies in place for its Board that approve travel and
expenses for attending meetings, business events such as conferences, and inaugural
flights at the two airports. 14 However, MWAA’s policies lack clarity and oversight in key
areas, which creates the risk of Board travel expenditures that could be perceived as
excessive by stakeholders and the public.

First, MWAA’s policy does not provide suggested limits or thresholds for business-
related Board travel expenses, including expenses for food and beverages and flights.
Without such limits, Board members can incur travel expenses that may appear
excessive. For example, one Board member was reimbursed $238 for two bottles of wine
purchased during a meal—an allowable expense under MWAA’s Board policy. 15
Another voucher we reviewed contained meal expenses for some Board members and
their guests during a trip to Hawaii for a conference. The cost for three dinners totaled
approximately $4,800. 16 We observed similar questionable expenses related to air travel.

14
     Inaugural flights, a common business expense among airports, are a celebratory round trip flight between Reagan National or
     Dulles International Airports and another airport, customarily offered by an air carrier on the first day of service to a new
     destination, or soon thereafter.
15
     In contrast, regular MWAA employees are explicitly prohibited from being reimbursed for alcohol.
16
     The first meal was for three Board members and four of their guests at a total of $1011.53. The second meal was for four
     Board members and nine of their guests at a total of $1935.11. The third meal was for five Board members and seven of their
     guests at a total of $1855.39.
                                                                                                                     7

For example, one Board member was regularly reimbursed for airline tickets purchased
less than a week before Board meetings, which are scheduled for the same day each
month. The cost of these 1-hour round-trip flights ranged from $761 to $1,125. Another
Board member purchased an international air ticket to a conference in Prague only
10 days prior to the trip at a cost of nearly $9,200. Typically, tickets purchased in
advance of travel—such as for recurring meetings and aviation conferences—may be
obtained at lower rates. While MWAA’s travel policy states that Directors should make
every effort to secure the most cost effective means of travel, there are no specific
guidelines to limit travel costs for these types of trips.

MWAA’s policies and processes regarding business-, coach-, and first-class travel are
similarly vague. The policy states that Board members may travel coach or business
class, and encourages but does not require Board members to purchase coach class tickets
for “short flights,” which are not defined. MWAA’s policy also allows Board members to
purchase first-class tickets with the special authorization of the Board Chair and
Executive Committee. However, MWAA lacks an established process for obtaining this
authorization or for denying reimbursement for first-class tickets that have not been
authorized. In the sample of 44 travel vouchers we reviewed (totaling $131,122), 17
6 travelers (14 percent) had been reimbursed for first-class tickets, including a first-class
flight from Washington, DC, to Hawaii to Florida totaling nearly $4,800. However, none
of these vouchers had documentation to show that the tickets had been authorized per
MWAA’s policy. According to an MWAA official we interviewed, first class flights are
at the discretion of the traveler and do not need to be pre-approved—raising questions
about how strictly MWAA follows its own policies in this matter.

MWAA Recently Enhanced Its Board’s Transparency, but Visibility Into Key
Board Activities Remains Limited
When we began our review, we identified several areas where MWAA had opportunities
to enhance the transparency of its Board’s decisions, activities, and processes.
Transparency is a key element to ensuring accountability for the Board’s actions. It is
also crucial for keeping the public, Congress, and other interested parties informed of
major decisions that impact the Washington, DC, metropolitan region and its residents.

Largely as a result of our discussions with MWAA, the Board of Directors revised its
bylaws in February 2012 to enhance the transparency and accessibility of its activities
and processes. In particular, MWAA now posts online meeting announcements, agendas,
meeting minutes, and other key information—such as its bylaws, code of ethics, and
rosters of committee members—so that the public can more easily learn when a key
meeting will occur, what topics will be discussed, and what major decisions were
reached. MWAA began implementing these new practices in March 2012.


17
     We reviewed a statistical sample of 44 out of 144 travel vouchers filed from January 2010 through March 2011.
                                                                                                                                 8

While MWAA’s revised bylaws represent important progress, some gaps in transparency
remain. For example, unlike other boards, MWAA has not posted formal meeting
minutes for Board committee meetings as it does for its general Board meetings. While
each committee Chair provides a summary of the activities that took place during the last
committee meeting, the summaries do not all include key elements such as who was in
attendance, a detailed account of the discussions, the results of a vote to move an action
to the full Board (i.e., number of yeas or nays), or whether there were any abstentions or
recusals. Typically, there are at least three committee meetings a month and one general
Board meeting. Because issues are discussed and debated in more detail in committee
meetings than in general Board meetings, these minutes could provide greater
transparency for the public regarding the rationale behind some of MWAA’s decisions.

Moreover, there remains a risk that public visibility into MWAA business could be
impeded through an inappropriate use of closed sessions. Like other public entities,
MWAA’s Board holds a portion of its discussions behind closed doors in executive
session to allow for confidential discussion of matters such as personnel changes or
ongoing litigation. While we acknowledge that closed sessions are a necessary part of the
Board’s governance in order to protect sensitive information, these sessions should not
obscure information and processes of which the public should have knowledge. For
example, MWAA’s recent revisions to its bylaws were discussed in a closed executive
session—even though the revisions included enhancements to transparency.

Furthermore, MWAA’s Board is subject to less stringent procedures for ensuring that
executive sessions are used properly, when compared to boards that are subject to State
transparency laws. MWAA’s bylaws specify the topics that are permitted to be discussed
in executive sessions, and the Board chairman announces the reasons justifying an
executive session during Board meetings when applicable. In contrast, the Board of
Directors of Dallas Fort-Worth International Airport must follow a Texas law requiring
that certified agendas or recordings of closed sessions be kept for 2 years. Similarly,
Virginia State law requires that boards take a public vote certifying that all matters
discussed were appropriate for a closed session. In addition, both Texas and Virginia
allow members of the public to initiate actions to enforce these provisions, and the State
laws hold Directors personally liable for non-compliance through imprisonment or
fines. 18 MWAA’s Board is not required to face any of these actions or penalties regarding
the content of its closed sessions. As a result of these potential gaps in transparency and
limitations for addressing them, MWAA’s stakeholders and the public may be less
inclined to maintain full confidence that the Board of Directors has remained accountable
for all its activities and decisions.



18
     For example, a willful violation of the Texas open meetings law is a misdemeanor punishable by up to 6 months in prison and
     a fine of up to $500. Under Virginia law, a willful violation of the open meetings law is a $500 to $2,000 civil penalty for a
     first offense and $2,000 to $5,000 for a second and any subsequent offense.
                                                                                                                                         9

Finally, MWAA’s Board holds its audit committee meetings exclusively in closed
executive sessions. This lack of transparency is especially significant considering the
nature of the committee, which discusses issues related to policy and oversight. In
contrast, similar airport and transportation governance boards 19 hold at least a portion of
their audit committee meetings in open session. This allows the boards to inform airlines,
airport users, and other interested parties of their internal audit findings and
recommendations and assure interested parties and the public that they are accountable
for their findings. MWAA has an opportunity to enhance its transparency by allowing
audit results to be presented in open session.

MWAA’S CONTRACTING POLICIES AND PROCEDURES ARE
INSUFFICIENT TO ENSURE COMPLIANCE WITH THE AIRPORTS ACT
The Airports Act and the lease agreement between DOT and MWAA require the
Authority to award contracts over $200,000 competitively to the maximum extent
possible. However, MWAA awarded only about one-third of its contracts with full and
open competition during the period of our review. 20 In addition, MWAA has not
complied with requirements to request Board approval for certain types of contract
awards. MWAA’s lack of compliance with contract award requirements may be due to
weaknesses in MWAA’s contracting policies and procedures.

MWAA Did Not Maximize Competition or Always Request Board Approval
When Required
While the Airports Act and MWAA’s lease agreement require that all contracts over
$200,000 be awarded with full and open competition to the maximum extent possible, the
Act also permits the Board to grant exceptions to this requirement. MWAA’s Board of
Directors has used its exception authority to authorize categorical exceptions to full and
open competition for items such as legal services, urgent need, or financial services. 21
MWAA awarded almost two-thirds (64 percent) of its 190 contracts that exceeded
$200,000 with less than full and open competition during the period of our review. 22 Of
these, 117 contracts were awarded using categorical exceptions, which amounted to more
than $220 million. Sole source or limited competition contracts over $200,000 that do not
fall under one of MWAA’s categorical exceptions require Board approval. During the
period of our review, MWAA awarded five sole source contracts that were over



19
     For example, as part of our review, we visited the Port Authority of New York and New Jersey and Dallas-Fort Worth
     International Airport to gain an understanding of their Boards’ functions and activities, with a focus on accountability and
     transparency practices. We chose these entities based on their many similarities to MWAA, such as size and makeup of board.
20
     We reviewed contracts awarded between January 2009 and June 2011.
21
     The six categorical exceptions established in section 1.2 of MWAA’s Contracting Manual include (1) limited competition for
     urgent needs; legal, financial, audit, or legislative representation professional services; and local business set asides; (2) airport
     security controlled distribution RFP; (3) utility supplies and services; (4) Government purchasing agreements; (5) airline tenant
     procured projects; and (6) proprietary equipment and software. Use of these exceptions requires no further Board approval.
22
     We reviewed contracts awarded between January 2009 and June 2011.
                                                                                                                                10

$200,000, but did not fall under any of MWAA’s categorical exceptions. 23 These contract
awards, which amount to $6 million, did not have Board approval.
We also found that MWAA did not obtain required Board approval for high-value
contracts as required by its Contracting Manual. 24 Specifically, 4 of the 13 awards
(31 percent) 25 valued over $3 million in our statistical sample did not receive Board
approval. 26 The Government Accountability Office (GAO) similarly reported in 2002 that
MWAA did not always seek Board approval for sole source awards exceeding $200,000
or for awards exceeding $3 million. 27
Ultimately, MWAA’s contracting practices risk compromising the intent of the Airports
Act to obtain the best value for its contracts and to provide an opportunity to all
contractors that may wish to compete for MWAA’s business. These practices also keep
the Board from being fully informed of critical business decisions that can impact the
Authority.

MWAA’s Contracting Policies and Procedures Do Not Reflect Effective
Contract Management
MWAA’s Contracting Manual, which it developed in 2003 and updated in 2008, sets
forth the contracting policies and procedures that the Authority uses to acquire goods and
services. However, MWAA’s contract award practices do not always comply with its
policies and procedures. For example, MWAA’s Contracting Manual states that
categorical exceptions comprise only a small portion of MWAA’s contracts and their
dollar value. 28 Yet, MWAA’s use of categorical exceptions has amounted to 40 percent
of the value of the Authority’s $589 million in contract awards during the period of our
review.

In addition, MWAA’s use of categorical exceptions may be inappropriate in some
cases. For example, MWAA’s Board of Directors used limited competition to award over
$1 million in contracts for an organizational study to assess MWAA’s governance,
management functions, and interorganizational challenges. The Board claimed “urgent
need”—a categorical exception to full and open competition—because delays in the
study would result in “serious detrimental consequences.” For example, the Board stated
that, if the study is delayed, important events such as the operation of the Dulles Toll
23
     According to MWAA’s Contracting Manual sections 2.10 and 1.2, contract awards using less than full and open competition
     require a justification to explain use of either (1) sole source awards or (2) categorical exceptions. During the period of our
     review, MWAA’s staff actually prepared justifications for seven sole source awards. However, we reviewed only five of these
     seven as sole source awards because the justifications for two cited specific categorical exceptions.
24
     MWAA’s Contract Manual section 1.2 requires Board approval for contract awards exceeding $3 million. The exception is
     competitively awarded construction contracts, which do not require Board approval.
25
     These four contracts are valued at $16 million at contract award and a total potential value of $59 million if MWAA exercises
     the option years.
26
     These 13 contracts, which were valued at nearly $189 million at contract award and could be as much as $277 million if option
     years are exercised, represent the high-valued contracts in our statistical sample of 32 contracts.
27
     GAO report, GAO-02-36, “Metropolitan Washington Airports Authority: Contracting Practices Do Not Always Comply With
     Airport Lease Requirements,” March 1, 2002.
28
     Section 1.2. in MWAA’s second edition Contracting Manual, issued in 2008. The Manual does not quantify “small portion.”
                                                                                                                                11

Road and the construction of the Dulles Corridor Metrorail Project “would take place
without an efficient and accountable organization in place.” However, despite the stated
urgency of these contracts, the organizational study has still not been finalized—a delay
of more than 12 months from its scheduled due date.

Some requirements are simply overlooked because it is unclear who is responsible for
ensuring compliance. MWAA’s Contracting Manual states that the contracting officer
should ensure Board approval prior to contract awards over $3 million and sole source
contract awards over $200,000. 29 However, MWAA’s contracting officers told us that
they did not seek Board approval for contract awards because this responsibility lies with
the office requesting the contract. MWAA’s procurement manager stated that the
responsibility for securing Board approval belongs to the office requesting the contract,
but according to MWAA’s Contracting Manual the contracting officer is responsible for
ensuring this approval is obtained prior to award. However, the role of the office
requesting the contract is not mentioned in MWAA’s Contracting Manual. In 2002, GAO
similarly reported that MWAA had overlooked requirements to secure required Board
approval for some awards. 30 Our findings indicate that MWAA has still not fully
addressed the concerns identified by GAO over 10 years ago.

Another weakness in MWAA’s contracting policies is that MWAA does not require
public notification of its intent to award sole source contracts. In contrast, Federal
procurement regulations generally require contracting officers to notify the public when
they decide to award sole source contracts. 31 MWAA’s practice of awarding sole source
contracts without notifying the public limits competition because it does not allow other
contractors a fair opportunity to offer the supply or service at a potentially lower cost.

Finally, MWAA permits delegations of contracting authority that allow personnel outside
of MWAA’s Procurement and Contracts Office to enter into agreements with contractors,
which can lead to ineffective procurement practices. 32 For example, our analysis to date
shows that MWAA allowed work to begin prior to official contract award dates on
190 out of the 709 contracts awarded during the period of our review. 33 To illustrate,
despite only having delegated authority to award contracts up to $50,000, an MWAA
senior official awarded a $100,000 sole source contract to a law firm under a categorical
exception for urgent need. The senior official also requested that the contractor proceed
with the work before MWAA’s Procurement and Contracts Manager gave his required
approval for the award. As the timeline below illustrates, the Procurement and Contracts
29
     MWAA’s Contract Manual, section 2.4.9.
30
     GAO report, GAO-02-36, “Metropolitan Washington Airports Authority: Contracting Practices Do Not Always Comply with
     Airport Lease Requirements,” March 1, 2002.
31
     FAR 5.207.
32
     MWAA’s Contracting Manual, sections 1.2.1 and 2.4.9, require that, prior to contract award, (1) the manager of procurements
     and contracts department approve justifications for contracts awarded with limited competition, and (2) the contracting officer
     complete the “award” portion of the Solicitation, Offer, and Award form.
33
     MWAA directive GC-002 delegates contracting authority from the President and CEO to the (1) Vice President and General
     Counsel, (2) Vice President and Airports Managers, (3) Concession and Property Development Manager, and (4) Procurement
     Manager.
                                                                                                             12

Manager was unaware of the contract award until we inquired, and the contract was not
signed until 3 weeks after the work was completed.

Timeline for Noncompetitive Contract Awarded by MWAA Senior
Official

Date of Action               Action Taken
                             MWAA’s Board requests a legal opinion on an Airports Act amendment that
     November 18,
                             increased the number of Board members. An MWAA senior official asks a
     2011
                             contractor to begin work on the opinion.
     November 29,            Contractor submits the completed legal opinion to MWAA before the
     2011                    noncompetitive contract is documented and officially signed.
                             OIG requests a copy of the contract from MWAA’s Procurement and Contracts
     December 8, 2011
                             Office. The Office indicates that it has never heard of the firm.
                             The MWAA senior official who authorized the contractor to begin work signs
     December 9, 2011        and dates contract documents, including a justification for an “urgent need”
                             categorical exception to full and open competition.
                             MWAA’s Procurement and Contracts Manager approves the justification for
     December 12,
                             awarding the contract without competition as an “urgent need” categorical
     2011
                             exception.
     December 21,
                             MWAA’s contracting officer signs the noncompetitive contract.
     2011
Source: OIG analysis

MWAA’s process of delegating contracting authority to staff that are not contracting
professionals increases the risk that MWAA may award contracts that do not meet its
Contracting Manual requirements and that MWAA may award sole source contracts
when it could have used a broader form of competition. Also, requesting contractors to
begin work prior to documenting the legal arrangement—including requirements, price,
and other terms—significantly increases MWAA’s contract cost and performance risks.

ASSUMPTIONS USED IN MWAA’S ESTIMATION OF TOLL ROAD
REVENUES APPEAR REASONABLE
Our preliminary assessment of Dulles Toll Road revenue estimates suggests that the
assumptions MWAA used to arrive at the estimates are generally reasonable. MWAA
plans to finance almost two-thirds of Phase 2 of the Dulles Corridor Metrorail Project
with revenue from the toll road, which it operates following a 2008 transfer agreement
from the Virginia State DOT. Because MWAA’s Phase 2 funding depends heavily on the
revenue the toll road can produce and sustain, sound revenue forecasts are critical to the
success of MWAA’s funding plans. Our review focused on the inputs and assumptions
used in forecasting toll receipts in a March 2012 report commissioned by MWAA. 34

34
     CDM Smith (under contract to MWAA), “The Comprehensive Traffic and Revenue Study 2012 Update Working Draft,”
     March 2012.
                                                                                                                      13

MWAA’s population and employment forecasts and gasoline price assumptions appear
reasonable. While MWAA’s method for estimating values of time (VOT) does not follow
typical practice, the resulting assumptions appear reasonable. We also identified factors
that help explain an increase between two Dulles Toll Road studies in the toll projected to
maximize revenue.

Population and Employment Forecasts and Fuel Price Projections Match
Those Produced by Reputable Sources
Based on our preliminary review, the assumptions MWAA made in forecasting
population and employment and in projecting fuel costs appear reasonable. Population
and employment forecasts help estimate the number of travelers who will use the toll
road, and higher population and employment forecasts support higher toll revenue
projections. MWAA’s baseline population and employment inputs match those reported
in the most recent U.S. Census. In addition, MWAA appears to have applied a relatively
conservative growth rate to this baseline to forecast future population and employment.
Specifically, the growth rates applied to the baselines do not differ substantially from
those published by the Metropolitan Washington Council of Governments (MWCOG).
Previous MWCOG estimates of population and employment growth rates for counties
along the Dulles Toll Road have proven to be conservative, and the MWCOG growth
rates used in the analysis are lower for Dulles Toll Road counties than those produced by
other sources. 35

Fuel price projections also factor into forecasts of toll road use, as the number of travelers
typically decreases when the costs of driving rise. An underestimation of fuel costs could
result in an overestimation of the number of potential toll road travelers. MWAA’s
contractor assumed that gasoline prices would start at $3.59 a gallon in 2011 and grow at
an assumed inflation rate of 2.5 percent per year. We consider these projections to be
reasonable because they are similar to those used in the U.S. Energy Information
Administration’s (EIA) Early 2012 Annual Energy Outlook reference case. EIA forecasts
fuel prices under many different scenarios, and its Annual Energy Outlook reference case
is in the center of these—that is, it is not the most conservative or the most radical
prediction of fuel cost growth. The EIA reference case presents a “business-as-usual
estimate, given known technology, technological, market, and demographic trends.” 36

MWAA’s Estimates for Travelers’ VOT Were Derived Atypically but Appear
Reasonable
Overall, the VOT estimates used in MWAA’s analysis appear reasonable. However,
some aspects of the methods used to develop them may affect their value. Travelers’
VOT estimates are one of the most significant components of toll road revenue
assumptions. VOT estimates help predict whether increased tolls will translate into
35
     For example, both Woods & Poole and the Center for Regional Analysis at George Mason University predict higher growth
     rates for these counties.
36
     EIA, “Annual Energy Outlook 2011,” March 2011.
                                                                                                                             14

increased revenue. The higher a traveler’s VOT, the more the traveler is willing to pay to
save time, and, therefore, the higher the toll the traveler would accept before seeking a
more time-consuming alternative route to the toll road. The importance of VOT estimates
is supported by sensitivity analyses conducted in a July 2009 Dulles Toll Road study,
which determined that a 25 percent decrease in VOT estimates would have caused a
17 percent reduction in that study’s annual toll revenue projections. 37 Overall, MWAA’s
VOT estimates are similar to the VOT estimates derived in an earlier Virginia DOT
study, which strengthens their credibility. 38 However, two factors in MWAA’s
subcontractor’s methodology raise questions about whether the most recent estimates
represent a valid confirmation of the earlier study’s results.

First, when calculating VOT estimates for the Dulles Toll Road, MWAA’s subcontractor
included a factor capturing travelers’ protest sentiments against tolls and toll increases—a
factor not typically considered in VOT estimation. In doing so, the subcontractor
effectively reduced the impact of travelers who might be unwilling to pay as much to use
the toll road on the estimates of how much travelers would be willing to pay for time
savings. This inflated the VOT estimates. According to the subcontractor, this factor was
included in part to prevent the VOT estimates from being too low; however, he could not
indicate the magnitude of its impact.

Second, MWAA’s VOT estimation did not consider travelers’ preferences for public
transit—a factor typically included in other VOT estimates in the industry. According to
MWAA’s subcontractor, this factor was excluded due to problems in the estimation
process. 39 It is unclear what impact excluding this factor has had on MWAA’s VOT
estimates. However, we remain concerned that the exclusion of this factor may impact
MWAA’s VOT estimates.

Increase in Revenue-Maximizing Toll Estimates May Be Explained in Part
by Two Factors
MWAA’s most recent estimate of the Dulles Toll Road’s revenue-maximizing toll—or
the toll that would generate the greatest total toll receipts—differs significantly from that
found in an earlier study. In a 2005 Dulles Toll Road study commissioned by the Virginia
State DOT, the revenue-maximizing toll for 2005 was estimated to be about $2. Yet, in a
2009 study commissioned by MWAA, the same contractor projected that the revenue-
maximizing toll would rise to slightly over $7 for 2010 and $12 for 2023. MWAA’s
current 2012 study represents only a partial update of the 2009 study, 40 and so the
findings of the earlier study remain relevant. While some increase in toll prices between

37
     Wilbur Smith Associates (under contract to MWAA), “Comprehensive Traffic and Revenue Study Final Report,” July 2009.
     The 2012 study represents an update of this analysis and used the VOTs estimated in 2009.
38
     Wilbur Smith Associates (under contract to the Virginia Department of Transportation), “Dulles Toll Road Rate Adjustment
     Review,” February 8, 2005.
39
     The subcontractor stated that survey data on travelers’ transportation preferences were unable to support the inclusion of a
     modal constant for transit preference in the VOT estimation process and also produce usable results.
40
     Most importantly, the 2012 study uses the VOT estimates derived for the 2009 study.
                                                                                                                                15

2005 and 2010 was certainly to be expected, the rate of the increase between the two
reports is striking.

Based on our preliminary review, this increase can be attributed in part to two factors,
both of which relate to increased traffic on non-toll roads. First, the population and
employment levels used in MWAA’s calculations grew substantially between 2005 and
2010—by 8.6 percent and 15.3 percent respectively—for Fairfax and Loudoun counties
combined. For the purposes of modeling toll revenues, this growth is significant because
it increases road congestion, which has affected non-tolled roads more heavily. 41 This
leads to a greater relative time savings from using the toll road, which supports a higher
revenue-maximizing toll.

Second, between the 2005 and 2009 studies, MWCOG revised the travel demand model
used in all the Dulles Toll Road traffic and revenue studies. Most notably, the revisions
increased the amount of delay associated with congestion on the alternate, non-tolled
roads. When used in MWAA’s analyses, the revised model served to increase the relative
travel time for drivers using alternative roads for all or part of their trip, which increases
demand for the toll road and therefore further supports an increased revenue-maximizing
toll.

Ultimately, however, estimating potential toll road revenues requires the use of many
inputs and assumptions, including those above, and complex models. While the two
factors we identified likely contributed significantly to the growth in the estimated
revenue-maximizing toll between the two studies, it remains unclear whether they can
explain the entire difference.

CONCLUSION
As the primary operator of two major airports and the sponsor of a massive public
transportation expansion effort, MWAA is a powerful entity whose decisions greatly
impact the Washington, DC, region and its residents. Since its creation, MWAA and its
Board of Directors have made many substantial improvements to the region’s airports.
Yet, the Authority recently found itself the subject of controversy and debate regarding
its activities and actions. Our ongoing observations on MWAA’s travel, ethics,
transparency, and contracting practices underscore the importance of consistent oversight
in promoting accountability and public trust. Because MWAA is free from many laws
that govern other public airports in the United States, it is especially important that it has
strong policies and robust internal controls in place to maintain the high standards of
governance expected by the Board’s Federal, local, and commercial stakeholders;
residents of the region; and the millions of passengers who pass through MWAA’s
airports each year.
41
     Specifically, the time required to make a trip on the alternative routes grew between the 2005 and 2009 speed and delay studies
     supporting the respective reports, as did the difference in the time required to make a trip on the Dulles Toll Road versus the
     alternative roads.
                                                                                       16

We will continue to monitor MWAA’s progress in increasing its accountability and
transparency, its policies and processes for complying with the terms of the law and lease
between DOT and MWAA, and its procedures for awarding contracts. Our work is
ongoing and we plan to report our full audit findings and recommendations for
improvement later this year. We will also continue to review MWAA’s oversight and
revenue assumptions for Phase 2 of the Dulles Corridor Metrorail Project as part of our
recently announced audit.

Thank you again for your attention to these important issues. If you have any questions
regarding this review, please contact me at (202) 366-1959 or Lou E. Dixon, Principal
Assistant Inspector General for Auditing and Evaluation, at (202) 366-1427.

Sincerely,


Calvin L. Scovel III
Inspector General

Enclosure

cc: Secretary Ray LaHood
    Deputy Secretary John Porcari
    General Counsel Robert Rivkin
    FAA Administrator Michael Huerta
    FTA Administrator Peter Rogoff
    Chief of Staff Joan DeBoer
    MWAA Board of Directors Chairman Michael Curto
    MWAA President and CEO John Potter
                                                                                  EXHIBIT

SCOPE AND METHODOLOGY
We conducted our ongoing audit from June 2011 through May 2012 in accordance with
generally accepted Government auditing standards. Based on a request from
Representatives Frank R. Wolf and Tom Latham, our objectives for this audit are to
determine whether: (1) the policies and processes under which MWAA operates comply
with the terms of the law and lease between DOT and MWAA; (2) MWAA’s process for
awarding contracts is consistent with the Act, as amended; and (3) MWAA’s policies and
processes are sufficient to ensure accountability and transparency of its Board’s activities.

To address our audit objectives, we reviewed the Metropolitan Washington Airports Act
of 1986, which created MWAA; the lease of 1987, as amended, between MWAA and the
DOT; and the District of Columbia and Commonwealth of Virginia statutes covering
MWAA. Pursuant to our review of the DOT-MWAA lease requirements, we reviewed
Board bylaws; Board and employee ethics requirements; MWAA’s Contracting Manual;
and Board travel policies.

We reviewed Board employment and financial interest statements, covering the period
from January 2008 through January 2011; a statistical sample of 44 of 144 Board travel
vouchers filed from January 2010 through March 2011; all 5 sole-source contracts valued
over $200,000 awarded between January 2009 and June 2011; 32 additional statistically
selected contracts out of a universe of 165 contracts awarded between January 2009 and
June 2011; and 3 judgmentally selected contracts. 1 We interviewed 12 Board members,
the Board Secretary, and the General Counsel to the Board, and attended all monthly
Board and committee meetings since September 2011. To obtain comparisons for
transparency and accountability, we visited the Port Authority of New York and New
Jersey and the Dallas-Fort Worth International Airport, interviewed Board members and
staff, and attended Board meetings.

Our ongoing work on toll road revenue assumptions is based on a March 8, 2012, request
from Representative Frank R. Wolf. The objective of our ongoing audit work is to assess
whether MWAA’s Phase 2 project plans rely upon reasonable assumptions of revenue
from the Dulles Toll Road. We conducted our work from March 15, 2012, through May
2012.




1
    Our final audit report will include a review of over 100 contracts.
To address our audit objective, we reviewed Dulles Toll Road traffic and revenue studies
published in 2005, 2009, and 2012; 2 and documentation on the different versions of the
Metropolitan Washington Council of Governments travel demand model used in those
studies. For comparison purposes, we reviewed multiple sources’ population and
employment forecasts for counties near the Dulles Toll Road, and Energy Information
Administration gasoline price forecasts. We also interviewed and requested information
from the contractor who produced the Dulles Toll Road traffic and revenue studies, CDM
Smith, 3 as well as University of Leeds Professor Mark Wardman, the subcontractor
responsible for producing the value of time estimates used in the 2009 and 2012 studies.




2
    Wilbur Smith Associates (under contract to the Virginia Department of Transportation), “Dulles Toll Road Rate Adjustment
    Review,” February 8, 2005; Wilbur Smith Associates (under contract to MWAA), “Comprehensive Traffic and Revenue Study
    Final Report,” July 2009; and CDM Smith (under contract to MWAA), “The Comprehensive Traffic and Revenue Study 2012
    Update Working Draft,” March, 2012.
3
    CDM Smith was created when CDM bought out Wilbur Smith.
